CERTIFICATE OF SERVICE
No. 19-1212
Chad F. Wolf, Acting Secretary of Homeland Security, et al.,
Petitioners,
v.
Innovation Law Lab, et al.,
Respondents.
I, Christopher M. Egleson, do hereby certify that, on this twenty-second day
of January, 2021, I caused three copies and an electronic copy of the Brief for
Professor Mila Sohoni as Amica Curiae in Support of Respondents in the foregoing
case to be served by first class mail, postage prepaid, and by email, on the following
parties:
JEFFREY B. WALL
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Petitioners

JUDY RABINOVITZ
American Civil Liberties Union
125 Broad Street
18th Floor
New York, NY 10004
(212) 549-2618
JRabinovitz@aclu.org
Counsel for Respondents
/s/ Christopher M. Egleson
CHRISTOPHER M. EGLESON
SIDLEY AUSTIN LLP
555 West Fifth Street
Los Angeles, CA 90013
(213) 896-6108

